OIG Investigative Reports, Press Release, Madison Wis., 11/30/2010 - Man Sentenced for Student Loan Fraud
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
Department of Justice
United States Attorney John W. Vaudreuil
Western District of Wisconsin
FOR IMMEDIATE RELEASE
NOVEMBER 30, 2010
WWW.JUSTICE.GOV/USAO/WIW
CONTACT: RITA M. RUMBELOW
PHONE: (608) 264-5158
TTY: (608) 264-5006
Man Sentenced for Student Loan Fraud
Madison, Wis. - John W. Vaudreuil, United States Attorney for the Western District of Wisconsin, announced that Ernest Kwasi Bankas, 56, a naturalized citizen of the United States originally from Ghana, who was living in Sachse, Texas, was sentenced today by U.S. District Judge Barbara B. Crabb to two years in prison, without the possibility of parole, for fraudulently obtaining student loan funds. Bankas pleaded guilty to this charge on September 17, 2010. Bankas was also ordered to pay $340,000 in restitution to the U.S. Department of Education.
Bankas’ fraud was detected in 2005 by the Great Lakes Higher Education Corporation (GLHEC) when they began audits of students studying abroad. Officials of GLHEC called the Department of Education to investigate when it learned that Bankas had already graduated from the University of Durham in England, yet he forged documents to continue to obtain loans, claiming he was still attending the University of Durham. Over the course of several years Bankas had also defaulted on several loans and used several social security numbers to obtain loans.
The charges against Bankas were the result of an investigation conducted by the U.S. Department of Education, Office of Inspector General. The prosecution of the case has been handled by Assistant U.S. Attorney Rita M. Rumbelow.
# # # #
Top
Printable view
Last Modified: 12/20/2010
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov